Department of Health and Human Services 

                 OFFICE OF 

            INSPECTOR GENERAL 





     lNDULNAlNCORRECT LY
  REPORTED EXPENDITURES ON
   THE FORM CMS-64 AT THE
  ENHANCED FEDERAL MEDICAL
 ASSISTANCE PERCENTAGE RATE



  Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                           Public.A ffairs@oig. hhs. gov. 





                                                Sheri L. Fulcher
                                            Regional Inspector General

                                                     May 2014
                                                   A-05-14-00011
                         Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office oflnvestigations (OJ) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts ofOI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                       DEPARTMENt' OF HK\LTH u'\"D HUMA'\" SERVICES


                   OFFICE OF INSPECTOR GENERAL

                                                               OFFICE OF AUDIT SERVICES, REGION V
                                                                   233 NORTH MICHIGAN, SUITE 1360
                                                                                CHICAGO, IL 60601



May 22,2014

Mr. Joseph W. Moser
Medicaid Director
Office ofMedicaid Policy and Planning
Indiana Family and Social Services Administration
402 West Washington Street, Room W461 , MS 25
Indianapolis, IN 46204

Dear Mr. Moser:

This letter report provides the results of our audit of Medicaid expenditures for services provided
in Indian Health Service (IHS) facilities that the State agency reported on its Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, Form CMS-64 (CMS-64) for the
quarter ending December 31, 20 10. In this report, we refer to these expenditures as IHS
expenditures.

We determined that the State agency had claimed Medicaid expenditures totaling $4,175,920
incorrectly as IHS expenditures, which resulted in the State agency receiving an enhanced
Federal reimbursement of$993,451. We recommend that the State agency refund the $993,451
to the Federal Government, review previous CMS-64s to ensure that Medicaid expenditures were
not reported at the IHS enhanced FMAP rate, and establish review procedures to ensure correct
reporting.

In a letter dated April 28, 2014, the State agency responded that it had addressed our three
audit recommendations. The State agency said it: 1) made a prior period adjustment on the
CMS-64 for the quarter ending September 30, 2013 that corrected the over-claiming of
Federal share by $993 ,451, 2) reviewed previous CMS-64's, and 3) requested assistance from
CMS in automating the CMS-64 reporting processes and enhancing CMS-64 reporting
controls. The full text of the State agency's comments is attached as an enclosure to this
report.

Background

The Federal Government pays its share of a State ' s medical assistance expenditures under
Medicaid based on the Federal medical assistance percentage (FMAP), which varies depending
Page 2 - Joseph W. Moser


on the State's relative per capita income. Although FMAPs are adjusted annually for economic
changes in the States, Congress may increase FMAPs at any time. Certain Medicaid services
                              1
receive an enhanced FMAP. For example, the Federal government reimburses 90 percent of
family planning services and 100 percent of services provided through an IHS facility.

The State agency claims Medicaid expenditures and the associated Federal share on the CMS-64.
This report shows the disposition of Medicaid funds used to pay for medical and administrative
expenditures for the quarter being reported and any prior-period adjustments.

States report Medicaid expenditures provided by IHS facilities on the CMS-64 and those
                                                                  2
expenditures are reimbursed at the enhanced rate of 100 percent. Since Indiana's Medicaid
program does not have any IHS facilities, the State agency should not report Medicaid
expenditures at the enhanced rate for IHS facility services on the CMS-64.

Objective, Scope, and Methodology

Our objective was to determine whether the State agency reported Medicaid expenditures for
services provided in IHS facilities on the CMS-64 in accordance with Federal requirements. We
limited our review to Medicaid expenditures of$4,175,920 reported as IHS facility services on
the CMS-64, for the quarter ended December 31, 2010 and related State agency records. We did
not evaluate claims submitted by providers to determine their validity. We limited our internal
control review to the State agency's procedures for reporting Medicaid expenditures on the
CMS-64 report.

To accomplish our objective, we reviewed applicable Federal laws and regulations and State plan
sections; interviewed State agency officials to obtain an understanding oftheir policies and
procedures for reporting Medicaid expenditures on the CMS-64; traced expenditures reported as
IHS facility services to detailed records and analyzed those records; and discussed our results
with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusion
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We conducted fieldwork at the State agency's offices in Indianapolis, Indiana.




1
    42 CFR § 433.10(c) 


2
    State Medicaid Manual section 2500.2(C) 

Page 3 -Joseph W. Moser


Results of Audit

The State agency overstated the Federal share of Medicaid expenditures on the CMS-64 by
$993,451. The State agency claimed $4,175,920 ofMedicaid expenditures at the IHS facility
services enhanced FMAP rate of 100 percent for the quarter ended December 31, 2010.
Although these expenditures were Medicaid-covered services and eligible for Federal
reimbursement at the regular FMAP rate of 76.21 percent, they were not for services provided
through IHS facilities and did not qualify for the enhanced 100 percent rate. The Federal share
overstatement of $993,451 is the difference between reimbursement at the rate of 100 percent
and 76.21 percent.

This error occurred because a State agency official entered Medicaid expenditure amounts from
supporting documents into the wrong FMAP column on the CMS-64. Also, the State agency did
not have adequate review procedures to identify that Medicaid expenditures had been entered in
the wrong column of the CMS-64.

We recommend that the State agency: (1) refund to the Federal Government $993,451 consisting
of enhanced Federal share reimbursement that it improperly received, (2) review previous CMS­
64s to ensure that Medicaid expenditures were not reported at the IHS enhanced FMAP rate, and
(3) establish review procedures to ensure that Medicaid expenditures are reported in the correct
column of the CMS-64 to ensure reimbursement at the proper FMAP.

State Agency Comments

In a letter dated April 28, 2014, the State agency responded that they had addressed our three
audit recommendations. The State agency said it: 1) made a prior period adjustment on the
CMS-64 for the quarter ending September 30, 2013 that corrected the over-claiming of
Federal share by $993,451, 2) reviewed previous CMS-64's, and 3) requested assistance from
CMS in automating the CMS-64 reporting processes and enhancing CMS-64 reporting
controls. The full text of the State agency's comments is attached as an enclosure to this
report.

OIG Comments

We reviewed the CMS-64 for the quarter ending September 30, 2013 and verified that the
$993,45 1 Federal share correction has been made. We agree that automating the CMS-64
reporting process should help prevent such an error from happening in the future.

                                           *********

Final determination as to actions taken on all matters reported will be made by the HHS action
official named below. We request that you respond to the HHS action official within 30 days
from the date of this report. Your response should present any comments or additional
information that you believe may have a bearing on the final determination.
Page 4- Joseph W. Moser


Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7119 or through email at
Lynn.Barken£Uoig.hhs.gov. To facilitate identification, please refer to report number A-05-14­
000 11 in all correspondence to this report.



                                     /Sheri L. Fulcher/
                                     Regional Inspector General
                                       for Audit Services



Direct Reply to HHS Action Official:

Jackie Gamer
Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601

ENCLOSURE
                          ENCLOSURE: STATE AGENCY COMMENTS 

                                                                                 Michael R. Pence, Governor
                                                                                             State of Indiana

                                                 I11dia11a Family and Social Sen,ices Administratiou
                                                              402W. WASHINGTON STREET, P.O. BOX 7083
                                                                           INDIANAPOLIS, IN 46207-7083




April28, 2014

Office of Inspector General
Lynn Barker, Audit Manager
DHHS/OIG/OAS
101 West Ohio Street, Suite 1310
Indianapolis, IN 46204

Dear Ms.Baker:

This letter is in response to your letter dated April1, 2014 concerning Common Identification Number A­
05-14-00011. Indiana concurs that on the CMS-64 report for the quarter ending December 31, 2010,
expenditures in the amount of$4,175,920 were erroneously entered into the Indian Health Services (IHS)
column instead of the regular FMAP column. The result was a reported over-claim of$993,451 in federal
share. As this was simply a keying error the additional funds were not drawn from the grant. Upon
reviewing the data requested by OIG for the review the State identified the error and made a prior period
adjustment on the CMS-64 for the quarter ending 9/30/13 to correct this matter. With this correction the
matter is resolved.

In regards to the additional recommendations for the State agency; a review ofprevious CMS-64s was
conducted which detected the error; and a manual process to reconcile the FMAP on the CMS-64 is
completed each quarter. However, with each quarterly submission of the CMS-64 the State is required to
key approximately 2,500 individual numbers within 30 days ofthe end ofthe quarter, manual review
processes do not eliminate all risk. The State has requested assistance from CMS in automating reporting
processes and additional reporting capabilities to enliance reporting controls.

Ifyou require further information, please contact David Nelson at (317) 233-3045.

                                                        Sincerely yours,



                                                        Joe Moser
                                                                           J!'~
                                                        Director
                                                        Office ofMedicaid Policy and Planning
cc:    JoyHeim
       David Nelson
       Donna Rutherford
